The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


November 10, 2011                                                          OIG-JJ-023

Commissioners:

This memorandum transmits the results of the audit (OIG-AR-12-02) of the Commission’s
financial statements for the fiscal years ended September 30, 2011 and 2010.

We contracted with the independent certified public accounting firm, Castro & Company, LLC,
to conduct this audit. The contract required that the audit be performed in accordance with U.S.
generally accepted government auditing standards.

My office has policies and procedures that are designed to provide assurance that work
performed by non-Federal auditors complies with the auditing standards. These procedures
follow the guidelines provided in the GAO/PCIE Financial Audit Manual (FAM650). In
connection with this contract, we reviewed Castro & Company’s final report and related
documentation and made inquiries of its representatives. Our involvement in the audit process
consisted of monitoring audit activities, attending meetings, participating in discussions, and
reviewing the audit planning, working papers, conclusions, and results.

Our involvement and review of Castor & Company’s work disclosed no instances where they did
not comply, in all material respects, with the U.S. generally accepted government auditing
standards; however, this review cannot be construed as an audit, and is not intended to enable us
to express, and we do not express, any opinion on the Commission’s financial statements. Castro
and Company is solely responsible for the audit report dated November 8, 2011, and the
conclusions expressed in the report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff
during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                      2121 Eisenhower Ave.
                                                                                      Suite 606
                                                                                      Alexandria, VA 22314
                                                                                      Phone: 703.229.4440
                                                                                      Fax: 703.859.7603
                                                                                      www.castroco.com
                                   Independent Auditor’s Report


Inspector General
U.S. International Trade Commission

We have audited the accompanying balance sheets of the U.S. International Trade Commission
(ITC) as of September 30, 2011 and 2010, and the related statements of net cost, changes in net
position, and budgetary resources for the fiscal years then ended. These financial statements are the
responsibility of ITC management. Our responsibility is to express an opinion on these financial
statements based on our audits.

Except for the limitations on the scope of our work related to the prior year amounts as explained in
the following paragraph, we conducted our audits in accordance with the auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and, Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. We considered the limitations on the scope of our work
in forming our conclusions. Those standards require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

We audited the accompanying balance sheet of the ITC as of September 30, 2010, and the related
statements of net cost, changes in net position, and budgetary resources for the fiscal year then
ended. Because of the matters discussed in our Independent Auditor’s Report dated November 8,
2010, we were unable to obtain sufficient audit evidence to support ITC’s financial statement
amounts as of and for the fiscal year ended September 30, 2010 for undelivered orders and the
related accounts payable and net position; nor were we able to satisfy ourselves as to the associated
balances reported on the balance sheet and statement of budgetary resources by other auditing
procedures. Our opinion on the FY 2010 financial statements does not differ from that opinion
expressed in our previous report dated November 8, 2010.

In our opinion, except for the limitations cited in our Independent Auditor’s Report dated November
8, 2010, the financial statements referred to in the first paragraph above present fairly, in all material
respects, the financial position of the ITC as of September 30, 2011 and 2010, and the related
statements of net cost, changes in net position, and budgetary resources for the years then ended in
conformity with accounting principles generally accepted in the United States of America.

The information presented in the Management's Discussion and Analysis is not a required part of
ITC's financial statements, but is considered supplementary information required by U.S. generally
accepted accounting principles and OMB Circular No. A-136, Financial Reporting Requirements.
The other accompanying information has not been subjected to the auditing procedures applied in
our audit of the basic financial statements and accordingly, we express no opinion on it.
Independent Auditor’s Report
Page 2


The information presented in the Message from the Chairman and Performance Section is presented
for purposes of additional analysis and is not required as part of the financial statements. However,
we have applied certain limited procedures, which consist principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information. Such
information has not been subjected to auditing procedures, and accordingly, we express no opinion
on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2011, on our consideration of ITC’s internal control over financial reporting and on our
tests of its compliance with certain provisions of laws, regulations and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results
of our audit.




November 8, 2011
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
